       November 8, 2002




   Financial Management

  Naval Air Systems Command
  Financial Reporting of
  Non-Ammunition Operating
  Material and Supplies for FY 2002
  (D-2003-020)




             Office of the Inspector General
                          of the
                 Department of Defense

                                Constitution of the
                              United States of America

No Money shall be drawn from the Treasury, but in Consequence of Appropriations
made by Law; and a regular Statement and Account of the Receipts and Expenditures
of all public Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
APA                   Appropriations Purchase Account
MEASURE               Metrology Automated Systems for Uniform Recall and Reporting
                         System
METCAL                Metrology and Calibration
NAVAIR                Naval Air Systems Command
ND PP&E               National Defense Property, Plant, and Equipment
OM&S                  Operating Materials and Supplies
PP&E                  Property, Plant, and Equipment
SFFAS                 Statement of Federal Financial Accounting Standards
          Office of the Inspector General of the Department of Defense
Report No. D-2003-020                                                   November 8, 2002
   Project No. D2001FJ-0179.000

              Naval Air Systems Command Financial Reporting
                  of Non-Ammunition Operating Material
                          and Supplies for FY 2002

                                  Executive Summary

Who Should Read This Report and Why? DoD civilian and military financial
management personnel who use or are involved in the preparation of the financial reports
required by the Chief Financial Officers Act. This report is the first in a series of planned
reports and discusses the financial reporting of non-ammunition operating materials and
supplies (OM&S) by the Navy.

Background. DoD defines OM&S as tangible personal property that is to be consumed
in normal operations. The Department of the Navy (Navy) non-ammunition OM&S is
made up of appropriations purchase account principal end items, sponsor-owned material,
appropriations purchase account secondary inventory items, and residual assets. The
total value of the non-ammunition OM&S that was reported by the Navy for FY 2001
was $25.4 billion. The Naval Air Systems Command reported $16.5 billion of
non-ammunition OM&S consisting of appropriations purchase account principal end
items and sponsor-owned material.

Results. The Navy policy to include principal end items as OM&S led the Navy to
incorrectly report National Defense Property, Plant, and Equipment assets as OM&S. As
a result, the Navy FY 2002 beginning balance for the OM&S account included
approximately $6.9 billion of principal end item assets that should be reported as
National Defense Property, Plant, and Equipment. The Navy will need to identify and
correct the remaining principal end item assets that are reported on the OM&S balance
prior to issuing FY 2002 financial statements.

Management Comments. Comments were received from the Principal Deputy
Assistant Secretary of the Navy (Financial Management and Comptroller) and the
Director, Office of Financial Operations (Financial Management and Comptroller).
Management generally concurred with the findings and conclusions and initiated actions
to improve the Naval Air Systems Command financial reporting of non-ammunition
OM&S. These actions included the removal of its aviation support equipment, mobile
facilities equipment, and calibration standards equipment from the “Inventory and
Related Property” line of the Balance Sheet on the FY 2002 Department of the Navy
Mid-Year Financial Statement. The Naval Air Systems Command staff had also
instructed subordinate activities to provide better data to support the OM&S reported by
them in the financial statements. Once received, the NAVAIR comptroller staff plans
greater review of the data prior to submission to the Assistant Secretary of the Navy
(Financial Management and Comptroller). Additionally, during the audit, the Assistant
Secretary of the Navy (Financial Management and Comptroller) took corrective action to
remove $1.1 billion of installed aircraft engines that were erroneously included in the
Navy non-ammunition OM&S balances. The Navy corrected this improper inclusion
before it released the FY 2001 Financial Statements.




                                           ii
Table of Contents

Executive Summary                               i


Background                                     1

Objectives                                     1


Finding
          Non-Ammunition Financial Reporting    3

Appendixes
     A. Scope and Methodology                   9
          Management Control Program Review     9
          Prior Coverage                       10
     B. Report Distribution                    11

Management Comments
             Department of the Navy            13
Background
    Introduction. The audit was performed in support of Public Law 101-576, the
    “Chief Financial Officers Act of 1990,” November 15, 1990, as amended by
    Public Law 103-356, the “Federal Financial Management Act of 1994,”
    October 13, 1994. This is the first in a series of planned reports and discusses the
    financial reporting of the non-ammunition portion of operating materials and
    supplies (OM&S) by the Department of Navy (Navy).

    DoD defines OM&S as tangible personal property that is to be consumed in
    normal operations. Navy non-ammunition portion of OM&S included in financial
    statements consisted of appropriations purchase account (APA) principal end
    items, sponsor-owned material, APA secondary inventory items, and residual
    assets. The total value of the non-ammunition OM&S that was reported by the
    Navy for FY 2001 was $25.4 billion. Of the total, Naval Air Systems Command
    (NAVAIR) reported $16.5 billion of non-ammunition OM&S. The NAVAIR
    reported OM&S consisted of APA principal end items and sponsor-owned
    material.

    OM&S Value. The OM&S data reported by the Navy were derived from
    logistics systems designed for material management purposes. Those systems do
    not maintain the historical cost data necessary to comply with the valuation
    requirements of the Statement of Federal Financial Accounting Standards
    (SFFAS) No. 3, “Accounting for Inventory and Related Property,” October 27,
    1993.

    The total value of the Navy non-ammunition OM&S is shown on the following
    table.

                   Value of Navy Non-Ammunition OM&S
                             (dollars in thousands)
          APA Principal End Items                   $ 15,489,404
          Sponsor-Owned Material                       7,872,426
          APA Secondary Inventory                        962,145
          Residual Assets                                834,276
          Other                                          258,002
          Total                                     $25,416,253


Objectives
    The overall objective of the audit was to evaluate management assertions
    pertaining to valuation, completeness, and existence of DoD OM&S accounts and
    to determine whether those accounts are presented fairly on the financial
    statements in accordance with Office of Management and Budget requirements.
    We focused this part of the audit on Navy actions needed to improve FY 2002 and
    future year financial reporting of its non-ammunition portion of OM&S. We also


                                         1
assessed management controls related to the specific objectives of the audit. See
Appendix A for a discussion of the audit scope and methodology and the review
of the management control program.




                                    2
            Non-Ammunition Financial Reporting
            The Navy FY 2002 beginning balance for the OM&S account included
            approximately $6.9 billion of assets that should be reported as National
            Defense Property, Plant, and Equipment (ND PP&E). The $6.9 billion in
            assets was incorrectly included in the $25.4 billion of non-ammunition
            OM&S on the Balance Sheet of the Navy Financial Statements. The
            incorrectly reported assets included:

                 •   aviation support equipment assets totaling $6.4 billion,

                 •   mobile facilities totaling $361 million, and

                 •   calibration standards equipment totaling at least $107 million.
            In addition, the Navy improperly included $1.1 billion of installed aircraft
            engines as part of its reported OM&S balance. The Navy reported those
            assets inaccurately because it did not comply with established guidance
            pertaining to which assets should be reported as OM&S. Also, the Naval
            Air Systems Command did not adequately validate the data gathered for
            OM&S reporting before submitting the data to the Assistant Secretary of
            the Navy (Financial Management and Comptroller) for inclusion in the
            financial statements. As a result of the audit, the Navy corrected the
            improper inclusion of the $1.1 billion of installed aircraft engines before it
            released the final version of the FY 2001 Financial Statements. However,
            the $6.9 billion of end item assets that were reported as OM&S will need
            to be corrected prior to issuing FY 2002 Financial Statements.

Financial Reporting Policy
     Inventory and Related Property. In SFFAS No. 3, “Accounting for Inventory
     and Related Property,” October 27, 1993, the Federal Accounting Standards
     Advisory Board issued accounting principles to track and report OM&S. OM&S
     were required to be reported as an asset on the Balance Sheet and were defined as
     tangible personal property to be consumed in normal operations. Also, the
     standard excludes the following assets from being reported as OM&S:

            •   goods that have been acquired for use in constructing real property or
                in assembling equipment for the entity to use,

            •   stockpile materials,

            •   goods held under price stabilization programs,

            •   foreclosed property,

            •   seized and forfeited property, and

            •   inventory.


                                          3
    The standard requires OM&S to be categorized as the following:

           •   OM&S held for use,

           •   OM&S held in reserve for future use, and

           •   OM&S excess, obsolete, and unserviceable.

    The standard also requires that once an asset is issued to an end user, OM&S are
    expensed and removed from the Balance Sheet.

    National Defense Property, Plant, and Equipment. SFFAS No. 11,
    “Amendments to Accounting for Property, Plant, and Equipment,” October 1998,
    states that ND PP&E includes: (a) complete weapon systems such as aircraft,
    ships, and tracked combat vehicles; (b) PP&E components of weapons systems
    and support PP&E owned by the DoD or its component entities for use in the
    performance of military missions; and (c) vessels held in a preservation status by
    the Maritime Administration’s National Defense Reserve Fleet.

Reporting Principal End Items as OM&S
    NAVAIR financial data improperly included approximately $6.9 billion in
    principal end items as OM&S to include support equipment, mobile facilities, and
    calibration equipment. Those assets should have been classified as ND PP&E.
    Until the audit, the Navy did not plan to change the reporting. Details on the
    types of items in the $6.9 billion of incorrectly reported OM&S are as follows.

    Naval Aviation Support Equipment Program. The Navy included $6.4 billion
    of aviation support equipment assets from its Naval Aviation Support Equipment
    Program in the OM&S balances. The Navy aviation support equipment consisted
    of test and maintenance equipment that was used to maintain various aircraft and
    other sophisticated weapon systems. The Navy Aviation Support Equipment
    Program assets were used to sustain tactical aircraft and other tactical systems
    during combat operations. This program supported a variety of maintenance
    shops, supply support spaces, production controls, and other activities.

    The support and maintenance equipment in the program was issued and in use
    both on board ships and at Naval Air Stations throughout the world. The aviation
    support equipment assets in the program met the definition of an ND PP&E asset.
    They were stand-alone assets rather than parts of an end item. As such, stand-
    alone assets should be included as a part of ND PP&E.

    Navy Mobile Facilities Program. The Navy reported $361 million of its mobile
    facilities as OM&S. The assets should have been reported as ND PP&E. The
    assets were part of the Navy Mobile Facilities Program. This program provides
    the equipment and all support requirements necessary to ensure that aircraft and
    other Navy weapon systems are maintained in environmentally controlled spaces,
    even in the most austere locations.




                                         4
As part of the Navy Mobile Facilities Program, Navy personnel deploy tactical
weapon systems to any combat theater in the world and operate them indefinitely
from any expeditionary location. Like the Naval Aviation Support Equipment
Program, those integrated mobile facilities supported tactical aircraft and other
tactical systems during combat operations throughout the world. The Navy
Mobile Facilities Program supported a variety of maintenance shops, supply
support spaces, production controls, and other activities.

The mobile facilities are primarily used as intermediate repair workstations. The
basic mobile facility is a fundamental tactical shelter 8 feet high, 8 feet wide, and
20 feet long. The shelter is constructed of foam and beam material with an
exterior surface of white painted aluminum, similar to a mobile home. The
facility is designed for a 15-year service life.

Those facilities are stand-alone assets that meet the definition of ND PP&E;
therefore, should not be included in OM&S balances.


Navy Metrology and Calibration Standards Program. The Navy also included
$107 million of calibration standards equipment assets as OM&S that should have
been reported as ND PP&E. The assets are from the Metrology and Calibration
(METCAL) Standards Program. The METCAL Standards Program establishes
and maintains the equipment that is required to verify the accuracy of operating
aviation support equipment.

An objective of METCAL is to provide standardized U.S. units of measurement
to all Naval Aviation activities. METCAL will verify that Naval Aviation units of
measurement are consistent with U.S. National and International Standards.
Another METCAL objective is to ensure that Naval aviation support equipment
used in weapons system maintenance is accurate.

METCAL assets are tracked using a non-financial feeder system, the Metrology
Automated System for Uniform Recall and Reporting System (MEASURE).
MEASURE tracks all active Navy metrology assets, to include aviation support
equipment and calibration standards equipment, for the purpose of calibration
recall. The MEASURE is also used to manage the inventory of all in-service
calibration standards.

At the time of audit, the value of the in-service METCAL equipment was
approximately $107 million. In-service METCAL equipment is equipment that
has been issued to the fleet and is in-use on board ships and at shore facilities
around the world.

The METCAL equipment assets were stand-alone equipment that met the
definition of ND PP&E; therefore, should not be reported in the Navy’s OM&S
balances.




                                      5
Installed Aircraft Engines
     The Navy Support/Commercial Derivative Aircraft Program acquires, fields, and
     supports special mission and commercial derivative aircraft using the best
     commercial concepts that benefit the DoD. The Navy improperly included
     $1.1 billion of those installed aircraft engines as part of the OM&S balance. The
     Navy Support/Commercial Derivative Aircraft Program manages 1,623 engines
     valued at $1.4 billion. Of the 1,623 engines, 266 were uninstalled spares valued
     at $263 million and were appropriately included in OM&S balances. However,
     the remaining 1,357 engines, valued at $1.1 billion, were installed on aircraft. We
     alerted the Navy that the installed engines should have been reported in
     ND PP&E. The Navy quickly corrected the error.
     As a result, installed aircraft engines valued at $1.1 billion were removed from the
     OM&S balance before the Navy released the final version of the FY 2001
     financial statements. We believe the Navy should improve its accounting controls
     to ensure that errors of this magnitude are detected prior to inclusion in financial
     statements.

Causes For OM&S Reporting Errors
     The Navy incorrectly reported ND PP&E assets on the OM&S balance for the
     following reasons.

     Principal End Items. The Navy decided in August 1999 to report its principal
     end items as ND PP&E and not as OM&S. However, the Navy reversed its
     position in February 2000 during an OM&S strategy working group meeting.
     The Navy believed that those items better met the definition of OM&S, and that it
     was appropriate to report principal end items on the Balance Sheet.

     We discussed this decision with senior Navy financial management personnel and
     also reviewed the OM&S strategy working group minutes. The discussions and
     minutes indicated that the Navy based its decision to report principal end items as
     OM&S on a review performed by KPMG, a consulting firm hired by the Navy.

     In general, the consultant’s review revealed that the Navy “2 Cognizance symbol”
     assets were simply a component of a weapon system; and therefore, should be
     reported as OM&S.

     We agree with the rationale that some Navy principal end items are component
     parts of another weapon system that could be reported as OM&S. However, we
     believe that other principal end items that are stand-alone functional systems, and
     not component parts of a weapon system, should be reported as ND PP&E.




                                          6
     Examples of stand-alone assets include:

        •   NAVAIR aviation support equipment program assets,

        •   mobile facilities program assets, and

        •   METCAL assets.

     Installed Aircraft Engines. Installed aircraft engines, valued at $1.1 billion,
     were erroneously included in Navy reported non-ammunition OM&S balances.
     Those reporting errors occurred because NAVAIR did not adequately validate the
     data gathered for its non-ammunition OM&S before including the data in the
     Navy financial statements.

     In order for NAVAIR to provide the Navy Comptroller data on its OM&S assets,
     NAVAIR requested, through email, spare engine inventory data from its various
     logistics program offices. However, the data provided by the
     Support/Commercial Derivative Aircraft Program office included both installed
     and spare engine inventories. NAVAIR provided the spare engine data to the
     Navy Comptroller. The data were included in the financial statements prior to
     being verified for accuracy. As a result of the inadequate review, installed aircraft
     engines were reported as OM&S.

Effect on Financial Statements
     Making the recommended changes will ensure that the FY 2002 and future year
     financial reports are accurate. The Navy should comply with guidance pertaining
     to reportable OM&S and validate the accuracy of non-ammunition OM&S data
     prior to its inclusion in the financial statements.

  Recommendations and Management Comments
     1. We recommend that the Assistant Secretary of the Navy (Financial
     Management and Comptroller) clarify and expand its policy for reporting on
     principal end items to ensure those stand-alone assets that meet the definition
     of National Defense Property, Plant, and Equipment are reported properly
     and are not included as a part of operating materials and supplies.

     Principal Deputy Assistant Secretary of the Navy (Financial Management
     and Comptroller) Comments. The Navy concurred with the recommendation.
     The Navy stated that it will not include the value of its aviation support
     equipment, mobile facilities equipment, and calibration standards equipment on
     the “Inventory and Related Property” line of the Balance Sheet on the FY 2002
     Department of the Navy Financial Statement.




                                           7
2. We recommend that the Commander, Naval Air Systems Command
strengthen its management control procedures to require that data from
subordinate commands that are used in the compilation of operating
material and supplies balances are adequately validated and categorized
prior to their inclusion in the Navy financial statements.

Director, Office of Financial Operations, Office of the Assistant Secretary of
the Navy (Financial Management and Comptroller) Comments. The Navy
concurred with the recommendation. NAVAIR staff has notified appropriate
subordinate activities that all future data provided for financial statement
reporting purposes must be supported with detailed documentation, which will be
compiled by their office before being submitted to the Assistant Secretary of the
Navy (Financial Management and Comptroller).




                                    8
Appendix A. Scope and Methodology
    We audited portions of the Navy General Fund financial reporting of
    non-ammunition OM&S. We examined financial information related to $8 billion
    of the $16.5 billion Navy non-ammunition OM&S, which was summarized in
    prior financial statements.

    We performed the audit by making inquires to personnel from the Offices of the
    Under Secretary of Defense (Comptroller)/Chief Financial Officer, the Navy Air
    Systems Command, and NAVAIR to determine the processes and policies that the
    Navy used to report OM&S.

    We performed this audit from August 2001 through March 2002 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the NAVAIR to determine the value of the beginning FY 2002 OM&S balances.
    Although we did not perform a formal reliability assessment of the computer-
    processed data, we determined that the assets represented by the data were
    improperly presented as OM&S rather than ND PP&E. We did not find errors
    that would preclude the use of computer-processed data to meet the audit
    objectives or that would change the conclusions in this report.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the financial management high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed Navy
    management’s self-evaluation of controls to determine whether the issues
    disclosed in this report had been reported as material management control
    weaknesses.

    Adequacy of Management Controls. We identified material management
    control weaknesses, as defined by DoD Instruction 5010.40, related to the
    reporting of assets in the Navy financial statements. The details of the
    management control weaknesses are provided in detail in the Finding section of
    this report. All of the recommendations in this report, if implemented, will
    improve the accuracy and reliability of Navy financial reporting. A copy of this
    report will be provided to the senior official responsible for management controls
    in the Navy.


                                         9
    Adequacy of Management’s Self-Evaluation. The FY 2001 Navy Annual
    Statement of Assurance did not identify specific control weaknesses related to the
    identification and reporting of Navy assets as operating materials and supplies.

Prior Coverage
    The General Accounting Office, the Inspector General of the Department of
    Defense, and the Naval Audit Service have conducted multiple reviews related to
    Navy financial statement issues. General Accounting Office reports maybe
    accessed on the Internet at http://www.gao.gov. Inspector General of the
    Department of Defense reports may be accessed on the Internet at
    http://www.dodig.osd.mil. The Naval Audit Service reports may be accessed on
    the Internet at http://www.hq.navy.mil/NavalAudit.




                                        10
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Air Systems Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization and Individual
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services




                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont.)
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          12
Department of the Navy
Comments




                     13
14
15
16
Team Members
The Defense Financial Auditing Service Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
James L. Kornides
John K. Issel
Walter J. Carney
Peter G. Bliley
Ann L. Thompson
Karen M. Bennett
